                                                                                         Ofice oflnspector General
                                                                                         Atlanta Freld Office 411ditD~vision
                                                                                                            -




                                                                                         U.S. Department of Homeland
                                                                                         Security
                                                                                         3003 Chamblee-Tucker Road
                                                                                         Atlanta, Georgia 30341




                                                August 1,2005

MEMORANDUM

TO:                          Patricia G. Arcuri
                             &cting R e g i ~ n a l ~ q e c t oFEMA
                                                                r,  Region I11

FROM:
                              Field Office ~ i r e c t o ?

SUBJECT:                      City of Portsmouth, Virginia
                              FEMA Disaster No. 1293-DR-VA
                              Audit Report No. DA-23-05


The Office of Inspector General audited public assistance funds awarded to the City of
Portsmouth, Virginia. The objective of the audit was to determine whether the City accounted
for and expended FEMA funds according to federal regulations and FEMA guidelines.

The City received an award of $3.3 million from the Virginia Department of Emergency
Management, a FEMA grantee, for debris removal, emergency protective measures, and repair of
water drainage systems and other facilities damaged as a result of Hurricane Floyd in September
1999. The award provided 75 percent FEMA funding for 15 large projects and 59 small
projects.1 Audit work was limited to the $2,46 1,169 awarded and claimed under the 15 large
projects (see Exhibit).

The audit covered the period September 1999 to January 2003. During this period, the City
received $1,845,876 of FEMA h n d s under the 15 large projects.

We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit included tests of
the City's accounting records, a judgmental sample of expenditures, and other auditing
procedures we considered necessary under the circumstances.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $47,800.
                                      RESULTS OF AUDIT

The City's claim contained questioned costs of $46,485 (FEMA share $34,864) resulting from
duplicate charges. This occurred because the City inadvertently claimed the same $46,485 of
contract charges associated with the temporary relocation of its human services department
twice; once under Project 791 and again under Project 800. We determined that the charges
were allocable to Project 800. Accordingly, we question the $46,485 of duplicate charges
claimed under Project 79 1.


                                    RECOMMENDATION

We recommend that the Regional Director, in coordination with the grantee, disallow the
$46,485 of questioned costs.


             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the audit results with City officials on June 2 1,2005, and with grantee and FEMA
officials on June 22,2005. City officials concurred with the finding.

Please advise the Atlanta Field Office-Audit Division by October 3,2005, of the actions taken to
implement our recommendation. Should you have any questions concerning this report, please
contact me or David Kimble at (770) 220-5242.
                                                     Exhibit

         City of Portsmouth, Virginia
        FEMA Disaster 1293-DR-VA
   Schedule of Claimed and Questioned Costs
                Large
                    - Projects

Project      Amount        Amount        Amount
Number      Awarded        Claimed      Questioned
076         $ 127,652     $ 127,652             0
330           300,652       300,652             0
332             64,225        64,225            0
338            522,593       522,593            0
357            119,185       119,185           0
399             51,910        51,910            0
475             12,156        12,156            0
602             60,300        60,300            0
604            108,238       108,328            0
657            236,609       236,609            0
725            171,849       171,849            0
73 8            8 1,254       81,254            0
779             11,011        11,011            0
79 1           169,278       169,278      $46,485
800            424,257       424,257            0
Total       $2,461,169    $2.461 169      $46.485
